Supreme Court, U.S.
FILED

WAIVER

NOV 18 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
20-635

Supreme Court Case No
Soo Line Railroad Company d/b/a Canadian Pacific

Consolidated Rail Corporation, et al

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
El Please enter my appearance as Cowisel of Record for all respondents.
0 There are multiple `respondents, and I do- not ' represent all respondents. 'Please enter my
appearance as Counsel of Record for the following respondent(s):

Terry Eyans, JOhn Hart, Mike Pendergrass and Tom Werner

0 I am a member of the' Bar of the Supreme Court of the United States.
El I am not presently a /limber of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member,
Signature
Date.

November

(Type or print) Name

2020

Nancy J. Townsend
Mr. 0 Ms. El Mrs. 0 Miss

Firm

Krieg DeVault LLP
" •-

8001 BroadWqy, Suite 400
Address
Merrillville, IN
City & State
Phone

219/227-6090

Zip

46410

Email ntownsend@kdlegal.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TOVT9CFO D
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIE
fabi0
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQU RED'

CC: dennis.lane@stinson.com; david.rifkind@stinson.com; andrew.davis
doug.dalgleish@stinson.com; etager@mayerbrown.com;
rmjenkins@mayerbrown.corn; rblaiklock@lewiswagnercom;
cwhybrew@lewiswagner. com; agrant@lewiswagner. com;
tboehm@hooverfullturnercom; kmunson@hooverhullturnercom

OFFICE OF THE CLERK
SUPREME COURT U.S.

Cil

